No.

IN THE
SUPREME COURT OF THE UNITED STATES

TAMARAN EDWARD BONTEMPS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
PROOF OF SERVICE BY MAIL
I, ANN C. M°CLINTOCK, do declare that on this date, May 23, 2021, as
required by Supreme Court Rule 29 I have served the enclosed PETITION FOR
WRIT OF CERTIORARI, APPENDIX, AND MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS on each party to the above proceeding or that
party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days. I further certify

that I am a member of the Bar of this Court and an attorney appointed to represent
Petitioner under the Criminal Justice Act of 1964, 18 U.S. C. § 3006A.
The names and addresses of those served are:

Solicitor General of the United States
Room 5614,

Department of Justice

950 Pennsylvania Ave., N.W.
Washington, D. C. 20530-0001

I further certify that in compliance with Rule 29.2, I sent to the Clerk of this Court the
enclosed items were delivered on May 23, 2021, for filing to a third-party
commercial carrier for delivery to the Clerk within 3 calendar days.

I declare under penalty of perjury that the foregoing is true and correct,

executed the 23rd day of May in the year ZL, 0 Wick

ANN C. McCLINTOCK
Assistant Federal Defender
801 I Street, 3rd Floor
Sacramento, California 95814
ann_mcclintock@fd.org
Telephone: (916) 498-5700
Attorneys for Petitioner
